Table of contents
Return
to the USDOJ/OIG Home Page
Inspection of the Influx of New Personnel
Report Number 1-2000-018
TABLE OF CONTENTS
EXECUTIVE MEMORANDUM
EXECUTIVE DIGEST
INTRODUCTION
RESULTS OF THE INSPECTION
RECRUTING AND HIRING
Numbers Required
Recruitment
Hiring Process
Compressed Hiring
Testing
Internet Information
TRAINING
Basic Training
Bifurcation of Training
Spanish Training
Supervisory Training
IDENT and Enforce Training
DEPLOYMENT
Deployment Planning
Facilities
Vehicles
Equipment
Support Personnel
Supervisor-to-Agent Ratio
Field Training Officer Program
Focus of Border Patrol Mission
Attrition
CONCLUSIONS
APPENDIX I: SCOPE AND METHODOLOGY